           Audit of USAID/Russia’s
Financial Operations and Management Controls




       Audit Report No. B-118-01-001-F
             November 30, 2000




              Budapest, Hungary
             U.S. Agency for
             INTERNATIONAL
              DEVELOPMENT

             RIG/Budapest


             November 30, 2000

             MEMORANDUM
             FOR:              USAID/Russia Mission Director, Carol A. Peasley

             FROM:             Director of Audit Operations/Budapest, Nathan S. Lokos

             SUBJECT:          Audit of USAID/Russia Financial Operations               and
                               Management Controls (Report No. B-118-01-001-F)


             This is our final report on the subject audit. In preparing the report, we
             considered your comments on the draft report and included them in their
             entirety in Appendix II.

             The report contains four recommendations and we consider management
             decisions to have been reached on all four recommendations. Furthermore,
             we consider Recommendation Nos. 3 and 4 closed upon issuance of the
             report.

             We appreciate the cooperation and assistance extended to the auditors on this
             assignment.


Summary of   USAID/Russia needs to establish and improve internal controls over its
Results      quarterly accrual process to provide a more accurate estimation of the
             Mission’s accrued expenditures. In particular, very old unliquidated
             commitments should be researched and cleared out of the Mission’s financial
             records rather than continuously accrued each quarter. USAID/Russia also
             needs to establish written policies and procedures for its project cash advance
             process to ensure consistent application and documentation of advance
             activities and to limit cash advances to current disbursement needs. Finally,
             SF 1221 reconciliations should be adequately reviewed and show evidence of
             this review.




Background
             Page 1 of 10                                            Audit Report No. B-118-00-001-F
                 Beginning in fiscal year 1996, the Government Management Reform Act
                 (GMRA) requires agencies to complete audited financial statements each year
                 covering all accounts and associated activities of the agencies. USAID
                 management’s ability to develop and maintain adequate internal controls,
                 accounting systems and procedures to generate reliable financial statements
                 will be critical to the success of USAID’s annual reporting under GMRA.

                 As part of the fiscal year 1999 GMRA audit, the Office of Inspector General
                 identified several material systemic deficiencies at USAID/Washington and
                 three statistically selected overseas accounting stations. We found that
                 USAID/Washington and the overseas accounting stations were improperly
                 calculating and reporting the accrued expenses and related accounts payable.
                 Also, the overseas accounting stations were not properly reconciling
                 disbursements and collections with the U.S. Disbursement Offices and the
                 U.S. Treasury and were not properly reporting outstanding advances at
                 yearend. As a result, these areas were selected as the primary focus for the
                 fiscal year 2000 GMRA audit.



Audit            This audit was a part of the Office of Inspector General’s audit of USAID’s
Objective        fiscal year 2000 financial statements as required by the Government
                 Management Reform Act (GMRA). The Office of the Regional Inspector
                 General/Budapest performed this audit to answer the following audit
                 objective:

                 •       Did USAID/Russia establish and implement adequate internal
                         controls to account for and report advances and prepayments, accrued
                         expenditures, and its Standard Form 1221 reconciliations?

                 Appendix I describes the audit scope and methodology.



Audit Findings   Did USAID/Russia establish and implement adequate internal
                 controls to account for and report advances and prepayments,
                 accrued expenditures, and its Standard Form 1221
                 reconciliations?

                 USAID/Russia did not have adequate internal controls to account for and
                 report accrued expenditures and did not have documentation evidencing the
                 supervisory review of its Standard Form (SF) 1221 reconciliations.
                 Furthermore, while the mission generally had adequate internal controls over
                 advances, some grantees have received cash advances in excess of their
                 current disbursement needs. In addition, the overall advance process could be
                 strengthened with written policies and procedures.


                 Grantees Have Received Excessive Cash Advances
                 Page 2 of 10                                            Audit Report No. B-118-00-001-F
                            Standard grant provisions for non-U.S. nongovernmental grantees provide
                            for periodic advances of USAID funding under certain conditions.
                            Although the provision regarding advances has undergone some revision in
                            recent years, it generally allows periodic advances when (1) the grantee has
                            an acceptable accounting system, (2) the grantee has the ability to maintain
                            procedures that will minimize the time elapsing between the transfer of
                            funds and the disbursement of funds, and (3) the grantee’s financial
                            management system meets certain standards for fund control and
                            accountability.

                            In addition, this provision limits periodic advances to “the minimum
                            amounts needed to meet current disbursement needs and [requires that
                            advances] be scheduled so that the funds are available to the grantee as
                            close as is administratively feasible to the actual disbursements by the
                            grantee for program costs”. The current provision1 defines current
                            disbursement needs as generally 30 days. There are similar procedures in
                            22 CFR 226.22 concerning advance payments to U.S. grantees. When
                            requesting advances, grantees should report on their cash needs over the
                            specified period and also on unused or remaining proceeds from earlier
                            advances that should be offset against the current request.

                            These provisions are in line with ADS Section 636.5.3 (2/15/00 revision)
                            which states that advances are limited to the minimum amount needed for
                            “immediate disbursing needs”. This is defined as up to 30 calendar days
                            (one month) from the date received until expended.

                            We initially identified USAID/Russia portfolio recipients with outstanding
                            project advances as of March 31, 2000. These 15 U.S. and non-U.S.
                            entities had 33 advances with unliquidated balances totaling $1,540,143.
                            From these recipients we focused our review on five Russian and two
                            American nongovernmental organizations (NGOs) with large outstanding
                            advance balances as of July 10, 2000, the date of our review. At that date,
                            these seven organizations had unliquidated advances totaling $1,610,550.

                                    NGOs                                                Unliquidated Advance

                                    Academy of Management and the Market                        $477,866
                                    Institute for Urban Economics                               $313,219
                                    Moscow Public Science Foundation                            $277,502
                                    Junior Achievement-Russia                                   $178,350
                                    American Chamber of Commerce                                $168,675
                                    Moscow Helsinki Group                                       $123,196
                                    U.S.-Russia Business Council                                 $71,742

                                    Total                                                     $1,610,550


1
    Provision No. 1, dated October 1998 of the Standard Provisions for Non-U.S., Nongovernmental Recipients
                            Page 3 of 10                                                  Audit Report No. B-118-00-001-F
Based on our review of the outstanding advances for these seven NGOs, we
identified the following three areas where internal controls should be
established or strengthened to improve the mission’s control of cash
advances.

•   First, advances for four of the seven grantees exceeded current
    disbursement needs. This occurred because the Mission has not always
    taken funds leftover from prior advances into account when approving
    subsequent project advances.

•   Second, three of the NGOs have requested and received advances for
    more than a month’s disbursement needs.

•   Third, USAID/Russia had no written policies or procedures regarding
    the advance process. We would expect to find guidance covering areas
    such as the types of documentation required of the recipient
    organization, the contents of advance files maintained by the
    USAID/Russia Office of Financial Management (OFM), the
    responsibilities of Mission program and OFM personnel in approving
    the advances, and detail concerning how the Mission determines the
    appropriate amount for an advance. We believe the absence of such
    policies and procedures contributed to the other problems described
    above.

Project Advances Not Offset By Leftover Prior Advance Funds
– Only two of the seven NGOs reviewed submitted information on leftover
funds from prior advances when requesting new advances. The other five
NGOs simply reported the amount of cash needed for the upcoming period
and received it without consideration given to any accumulating unspent
cash balances from earlier advances. As a result, four of these five NGOs
have advance balances in excess of current disbursement needs.

For example, the Moscow Helsinki Group submits a monthly Standard
Form 270 (Request for Advance or Reimbursement) and enters financial
information only on selected lines of the form with “estimated net cash
outlays” and the “amount requested” being the same. The organization had
received cash advances of $875,870 for the period October 1998-May 2000
but spent only $840,124 for the same period. The excess $35,746 advance
should have been offset against the $45,075 advance subsequently
processed for the month of July 2000.

Another, similar example, the U.S.-Russia Business Council received
monthly advances totaling $680,934 for the months of October 1997
through May 2000 but spent only $647,643 for the same period. The
excess $33,291 leftover from those advances should have been offset
against the $17,611 advance subsequently processed for the month of July
2000.


Page 4 of 10                                        Audit Report No. B-118-00-001-F
Project Advances In Excess Of One Month’s Disbursement
Needs – Three of the seven NGOs reviewed have requested and received
advances for two or three months’ disbursement needs and in one case,
even more. For example, the Academy of Management and the Market
(AMM) has consistently received three-month advances and on two
occasions has received advances to cover four months of future
disbursement needs. On August 12, 1999, the Academy received $200,000
to cover anticipated expenses for September through December 1999. On
November 30, 1999, it received an additional $75,000 to cover expenses
through March 2000. USAID/Russia should limit project advances to one
month’s disbursement needs in accordance with ADS Section 636.5.3.

Incomplete Documentation And Advance Files Not Always
Properly Maintained – Our review of the manual advance files and the
related payment schedule files for these seven NGOs disclosed 1) that these
organizations submitted incomplete documentation when requesting
advances and 2) inconsistencies in the Mission’s maintenance of advance
files.

As discussed earlier, we found that some organizations requested advances
by submitting a Standard Form 270 (Request for Advance or
Reimbursement) while others submitted a detailed listing of budget items
and the amount they expected to spend on each. However, using either
method, most organizations did not provide information on leftover
advance funds already available for immediate use. Information on
leftover advance funds is specifically requested on SF 270 and should be
required of any new advance request.

In addition, while five of the seven NGOs had well-organized manual
advance files with spreadsheet ledgers clearly showing the history of the
organization’s advance requests and liquidations, the files for the other two
NGOs were disorganized and lacked a spreadsheet ledger or any other
analysis or control document. Finally, in some cases we found on file a
completed project officer checklist from the activity manager for specific
advance requests although in other cases, the checklist was either not
submitted or was not readily located.

Many of the problems discussed in the preceding sections may have been
avoided if USAID/Russia had written policies and procedures regarding the
processing of project advances. USAID/Russia can improve its control
over cash advances by identifying what is required of each participant in
the process (the recipient organization, the applicable activity manager, and
the voucher examiner), properly documenting the advance approval process
and limiting cash advances to current disbursement needs. At a minimum,
the USAID/Russia Office of Financial Management should prepare a
detailed memorandum for its staff to emphasize areas where improvements
in the advance process are needed.



Page 5 of 10                                           Audit Report No. B-118-00-001-F
        Recommendation No. 1: We recommend that USAID/Russia
        prepare written policies and procedures regarding project
        advances to address such items as identifying documentation
        required to request or approve an advance, limiting advances to
        current disbursement needs, and the maintenance of the
        Mission’s Office of Financial Management’s manual advance
        files.

Internal Controls For Accrued Expenditures Are Ineffective

At the end of each quarter of the fiscal year, USAID missions review their
unliquidated commitments and determine the amount that should be
recorded       as     accrued       expenditures.      These      accrued
expendituresaccrualsrepresent costs that have been incurred for goods
and services already received but for which the billing has not yet been
received or paid. These accruals are posted to USAID’s accounting records
on the final day of each fiscal quarter and are reflected in the financial
statements or summaries for that quarter. The accruals are automatically
reversed by the Mission Accounting and Control System (MACS) on the
first day of the following quarter.

Our review focused on USAID/Russia’s accruals for the second quarter of
fiscal year 2000 that totaled $50.295 million. We identified three areas
where internal controls could be established or strengthened to result in a
more accurate estimation of the Mission’s quarterly or yearend accruals.
First and most important, we noted a lack of participation by
USAID/Russia Office of Financial Management personnel in determining
accruals, compounded by inadequate review of old unliquidated
commitments that have been repetitively accrued for multiple years. In
addition, we found that there were no second party reviews of accrual input
summaries before entry into MACS and no review or adjustments of
accruals to reflect late quarter disbursements.

Lack of Participation by Controller’s Office in Determining
Accruals − USAID/Russia Mission Order 19-05, dated October 19, 1993,
describes the procedures to be used in developing quarterly accruals. The
mission order calls for the Mission Controller to meet with each project
officer to assist in the review and determination of the project accruals for
their section’s unliquidated commitments, which are listed on the Project
Accrual Worksheet (PO9 worksheet). Project officers are also required to
attach supporting documents to their worksheets for any accrual in excess
of $1 million.

We reviewed the PO9 worksheets for the second quarter fiscal year 2000
accruals and interviewed both project and Office of Financial Management
(OFM) personnel concerning how the accrual process actually functions at
USAID/Russia. All personnel reported that OFM strictly relies on the PO9
information as determined and submitted by the project activity offices
with no participation from OFM in their reviews of unliquidated
Page 6 of 10                                           Audit Report No. B-118-00-001-F
commitments. The supervisory accountant reported that many project
offices found that joint meetings to review their PO9 worksheets were time
consuming and preferred to perform the review on their own. During our
review, we also noted 8 accruals totaling $17.2 million (34 percent of all
project accruals) where the individual accrual exceeded $1 million.
However, no supporting documentation was submitted with any of the PO9
worksheets related to these accruals.

In reviewing USAID/Russia’s PO9 worksheets and the corresponding
Commitment Liquidation Records (PO4 reports) we noted several
unliquidated commitments that were three years or older. In several cases,
USAID/Russia had consistently accrued the entire amount of the
commitment each quarterbut had either never actually posted a
disbursement against the commitment or, for the oldest commitment, had
not posted a disbursement in the last four years. These 11 commitments,
listed in Appendix III of this report, total $11,661,973, and represent 23
percent of USAID/Russia’s project accruals for March 31, 2000.

With most of these commitments, it was clear that USAID/Washington had
apparently already paid for the corresponding goods and services that
Mission personnel were certain had been received years earlier. However,
USAID/Russia had never received disbursement data from
USAID/Washington for posting to its accounting records nor had mission
staff done the research and/or communication with USAID/Washington
necessary to resolve these long idle commitments. Project activity
personnel were waiting for the USAID/Russia Office of Financial
Management to take that necessary action so that these long outstanding
commitments could be liquidated in the Mission’s accounting records.

One example is a $15 million commitment USAID/Russia established for
goods and services from the Urban Institute on July 27, 1994. The project
was completed in 1995 and the activity manager was certain all funds had
been spent and that the contractor had been paid. The Mission’s
accounting records, however, show that no disbursements have been posted
since July 18, 1996 and the remaining unliquidated balance of $6,354,673
has simply been accrued and reversed every fiscal quarter since then.

As stated in Mission Order 19-05, the Mission’s OFM is responsible for
maintaining project accounting records, and the development of reliable
accrued expenditures is a management team responsibility to be shared
with the appropriate technical office. Direct involvement and active
participation by OFM is necessary to provide assurance of an accurate
determination of accrued expenditures. The mission order should more
specifically define an accrual process and level of OFM participation that
the Mission is prepared to implement and enforce. In the case of the 11
accruals listed in Appendix III, OFM should immediately research and
determine the correct status of the commitments—including
communicating with USAID/Washington—rather than simply accruing
these amounts each quarter.
Page 7 of 10                                         Audit Report No. B-118-00-001-F
No Second Party Reviews of MACS Input − Each fiscal year quarter,
the Mission’s Office of Financial Management prepares a Batch Project
Accrual Entry File (P15 Report) that summarizes the information on
individual accruals that has been manually entered on the PO9 worksheets
by the various project activity offices. The P15 report is later electronically
entered into MACS, thereby establishing the accruals in the Mission’s
accounting records.

Under current procedures, one individual (generally the supervisory
accountant) prepares the P15 report and also double-checks his/her own
work to ensure the PO9 data has been correctly entered. During our
review, we noted one error in data entry where an accrual of $387,000 on
the PO9 worksheet was input as only $387. We believe that a second party
reviewwhich is a basic internal control to ensure the accuracy of entered
datawould likely have caught this error. Although, in this instance, we
only noted one error which amounted to less than one percent of the total
amount accrued, we are convinced that the risk of future errors would be
minimized by conducting a second party reviewa review that would
require less than one hour to complete.

No Adjustments of Accruals for Late Posted Disbursements −
The source document that initiates the accrual process is the OFM-prepared
Project Accrual Worksheet (PO9 worksheet) which lists all unliquidated
project commitments. Project activity managers annotate the accrual
amount for each commitment on the worksheet and then return that
worksheet to OFM.

Each fiscal quarter, these managers should develop the accruals for their
commitments by gathering actual or projected cumulative expenditures
from vendors and then subtracting the disbursements already posted to the
mission’s accounting system, as reflected on the Project Accrual
Worksheet. However, in the time it takes the project activity manager to
complete the review of PO9 worksheets, other billings from grantees and
contractors are simultaneously being processed and paid, which impacts the
amount that should be accrued.

For instance, the second fiscal quarter’s PO9 worksheets were prepared as
of March 20, 2000, but the accruals were not posted until the end of the
quarter on March 31. In the intervening eleven days, several disbursements
were paid and posted to the accounting records. Our audit sample of 30
accruals included 9 accruals totaling $925,325 that had had disbursements
posted to them after the PO9 worksheets were prepared. The accrued
amounts on the PO9 worksheets will in most cases be overstated unless the
worksheets are reviewed and adjusted for any disbursements made late in
the fiscal quarter.

An effective accrual process must include a system or methodology for
adjusting accrual amounts when the actual payments for applicable goods

Page 8 of 10                                            Audit Report No. B-118-00-001-F
and services are made. Accrual adjustments for late posted disbursements
may often be relatively insignificant as a part of the Mission’s total
accruals but an effort should be made to identify and make as many of
these adjustments as possible.      Without a review of late quarter
disbursements and an adjustment of the corresponding accrual amounts,
USAID/Russia’s accrual process can not be considered effective and the
accrual amounts can not be considered entirely reliable.

        Recommendation No. 2: We recommend that USAID/Russia
        revise and update its Mission Order No. 19-05 to include: a)
        second party reviews of accrual data input, b) a provision for
        adjustment of accruals due to late quarter disbursements, and
        c) a sufficient level of USAID/Russia Office of Financial
        Management participation in the accrual process.

        Recommendation No. 3: We recommend that USAID/Russia
        review the eleven commitments listed in Appendix III of this
        report to determine the correct status of these commitments.

Internal Controls For SF 1221 Reconciliation Are Ineffective

USAID overseas missions commit and obligate funds that are disbursed by
the United States Disbursing Offices (USDOs). The USDOs send a
Standard Form (SF) 1221 report to the mission listing all of their fund
activity for each appropriation for the month. At the end of each month,
the mission controllers’ offices conduct a SF-1221 reconciliation between
the fund activities in their accounting system and that reported by the
USDOs. The SF-1221 reconciliation is used to determine the overseas
portion of USAID’s fund balance with the U.S. Treasury and the USAID
missions report their SF-1221 reconciliation to USAID/Washington via a
monthly U-101 report.

We reviewed USAID/Russia’s procedures for performing the SF-1221
reconciliation and specifically reviewed the February and March 2000 SF-
1221 reconciliations for three appropriations (72X1000, 72X1021, and
72X1093) and traced key figures to USAID/Russia’s corresponding U-101
reports.

Our review found that the SF-1221 reconciliations are not adequately
reviewed      before    submission     of     the     U-101   reports    to
USAID/FM/Washington. We noted a $2000 footing error on the
reconciliation for the 72X1093 appropriation that had gone undetected for
at least four months prior to our review. Although the reconciliations are
supposed to be the supporting documentation for the U-101 report, there is
no evidence of second party or supervisory review of these reconciliations.
Standards for Internal Control in the Federal Government issued by the
Comptroller General of the United States call for internal control and all
transactions and other significant events to be clearly documented with the
documentation readily available for examination.
Page 9 of 10                                          Audit Report No. B-118-00-001-F
                           Recommendation No. 4: We recommend that USAID/Russia
                           retain evidence of supervisory review of SF-1221 reconciliations
                           for each U-101 report.


Management     USAID/Russia agreed with the audit findings and either agreed with the
Comments and audit recommendations or offered acceptable alternatives to achieve
Our Evaluation corrective action.
                   With respect to Recommendation No. 1, USAID/Russia’s Office of
                   Financial Management (OFM) plans to provide detailed guidance
                   concerning project advances as contained in the recommendation. The
                   guidance will (1) require awardees to deduct funds remaining from prior
                   advances from current advance requests, (2) limit advances to one month’s
                   needs, and (3) specify the documentation to be maintained in OFM files.

                   Concerning Recommendation No. 2, OFM has assigned the assistant
                   accountant the duty of reviewing accrual data input and has instituted
                   quarterly meetings with technical divisions to review and determine the
                   adequacy of accruals. OFM is developing a worksheet and procedure to
                   identify late quarter disbursements so that quarterly accruals can be
                   adjusted for these payments.

                   USAID/Russia has systematically followed up on the commitments cited in
                   Recommendation No. 3 and the largest of these, Urban Institute, has
                   already been deobligated. The other commitments are in various stages of
                   research with USAID/Washington and USAID/Russia’s Chief Accountant
                   is also going to Washington to expedite the resolution of these old
                   commitments.

                   Concerning Recommendation No. 4, a signature showing evidence of
                   supervisory review of the SF-1221 reconciliation is now being maintained
                   for each U-101 report.

                   Based on USAID/Russia’s response, we consider that management
                   decisions have been reached on all four recommendations and that final
                   action has been taken on Recommendation Nos. 3 and 4. The planned
                   guidance in connection with Recommendation No. 1 must be prepared
                   before a determination of final action can be made for that
                   recommendation. Similarly, the worksheet and related procedure for late
                   quarter disbursements is needed for final action on Recommendation No. 2.




                   Page 10 of 10                                       Audit Report No. B-118-00-001-F
                                                                                      Appendix I



Scope and     Scope
Methodology
              The Office of the Regional Inspector General/Budapest conducted an audit, in
              accordance with generally accepted government auditing standards, to
              determine if USAID/Russia had established and implemented adequate
              internal controls to account for and report advances and prepayments, accrued
              expenditures, and its Standard Form 1221 reconcilations. The audit was a
              part of the Office of Inspector General’s audit of USAID’s fiscal year 2000
              financial statements as required by the Government Management Reform
              Act. Audit coverage of advances centered on USAID/Russia’s project
              advances to 15 different organizations totaling $1.54 million as of March 31,
              2000. Audit coverage of accrued expenditures centered on the $50.295
              million in accruals recorded by USAID/Russia on March 31, 2000. SF-1221
              reconciliations for two months covering three appropriations were also
              reviewed. The audit was conducted at USAID/Russia from June 27 through
              July 14, 2000.

              Methodology

              The audit objective was to determine if USAID/Russia had established and
              implemented adequate internal controls in the areas of: (1) advances and
              prepayments, (2) accrued expenditures, and (3) SF-1221 reconciliations.

              In answering the audit objective regarding advances and prepayments, we
              interviewed Mission accounting personnel to identify the procedures and
              controls used in approving and liquidating project advances. Using a listing
              of organizations with outstanding advances as of March 31, 2000, we
              selected a judgmental sample of organizations with large current advances
              to determine whether the Mission was ensuring prompt liquidation of
              advances and controlling the amounts advanced to organizations.

              To answer the audit objective regarding accrued expenditures, we
              interviewed Mission personnel to identify the procedures and controls that
              the Mission has established for preparing monthly accruals, including
              Mission Order 19-05 dated October 19, 1993. Using discovery sampling,
              we selected a sample of 30 individual accruals from the Mission’s second
              quarter FY 2000 and tested various internal controls including determining
              whether (1) adjustments were made to accruals for disbursements made late
              in the quarter, (2) second party reviews were made to ensure accuracy
              when entering accruals into the accounting system, and (3) accruals were
              reversed at the beginning of the third quarter.

              In addition, we also selected a judgmental sample of accruals relating to
              older large commitments and attempted to determine whether the Mission



              Page 1 of 2                                            Audit Report No. B-118-00-001-F
                                                                     Appendix I

had adequate documentation or support for accruing these amounts. Using
discovery sampling, only one exception exceeds the materiality threshold
since the sample is supposed to be representative of the universe.

In answering the audit objective regarding SF-1221 reconciliations, we
reviewed USAID/Russia’s procedures for performing the reconciliations
and specifically reviewed reconciliations for two months covering three
different appropriations. OIG/Washington selected three appropriations to
be reviewed at all overseas missions as part of the worldwide audit,
however, one of these appropriations was not used by USAID/Russia.
Accordingly, we selected appropriation 72X1093 as a substitute because it
was the most actively used appropriation at USAID/Russia. Key amounts
or transactions were traced from the SF-1221’s to the corresponding U-101
reports. Materiality thresholds were not established for this part of the
objective.




Page 2 of 2                                         Audit Report No. B-118-00-001-F
                                                                                                  Appendix II

MANAGEMENT
COMMENTS
                     United States Agency for International Development
                      Local: USAID/Moscow                    U.S.    American Embassy / Moscow
                      Address: 19123 Novinsky Bulvar         Mailing   PSC 77 USAID
                      Moscow 121099, Russia                  Address: APO AE 09721

                      Telephone: 7 - 095 - 728 5000          Fax.   7 - 095 - 960 2141142


                                                                                 November 14, 2000
    MEMORANDUM


    TO:             Director of Audit Operations/Budaepst, Nathan S. Lokos

    FROM:           USAID/Russia Mission Director, Carol A. Peasley /s/

    SUBJECT:        Response to Draft Audit Report on Audit of USAID/Russia’s Financial Operations and
                    Management Controls




    I would like to thank you and your auditors for the assistance provided to USAID/Russia during
    your review in accordance with the Government Management Reform Act. Our actions in response
    to the recommendations in your report should strengthen the control mechanisms of the Mission.
    We appreciate the extra efforts the auditors took to assure that facts presented in the report were
    accurate. We also recognize that differing conclusions can be reached based on the same set of
    facts.

    The following is our plan of action to address the four recommendations presented.

    Recommendation No. 1.: We recommend that USAID/Russia prepare written policies and
    procedures regarding project advances to address such items as identifying documentation
    required to request or approve an advance, limiting advances to current disbursement needs, and
    the maintenance of Controller's Office manual advance files.

    OFM accepts the auditors' recommendation that the Mission take actions to strengthen management
    of project advances. The Office of Financial Management will provide detailed guidance to the staff
    concerning the following issues. First, there will be language that makes it mandatory that the
    awardee requesting the advance must deduct funds remaining from prior advances from their
    current request. Second, it will be emphasized that advances are to be limited to one month's need.
    Third, the maintenance of clear and concise documentation in the OFM files will be emphasized.
    The documentation required will at a minimum be (a) the request for advance form, (b) an
    annotation in the file as to whether it has been determined that a detailed justification by line item
    will be required for advances to the individual awardee, (c) a spreadsheet showing the detailed
    history of the organization's advance requests and liquidations, and (d) a completed project officer
    checklist for each advance request.




                    Page 1 of 3                                                   Audit Report No. B-118-00-001-F
                                                                                               Appendix II




We do not, however, believe that we need to update Mission Orders or generate a new series of detailed
procedures. We believe that guidance currently exists for required actions in USAID's official on-line
ADS system.


Recommendation No. 2. We recommend that USAIDIRussia revise and update its Mission
Order No. 19-05 to include: a) second party reviews of accrual data input, b) provision for
adjustment of accruals due to late quarter disbursements, and c) a sufficient level of
Controller's Office participation in the accrual process that will result in adequately
supported accruals.

OFM has instituted the following corrective actions:

For item a). We have assigned the assistant accountant the duty of reviewing the data
input into the accounting system for accruals. This should assure that the entries are
correct in accordance with the documented determinations.

For item b). We are developing a worksheet and attendant procedure to capture the
payments made between the printing of the P09 worksheets and the end of the quarter.
These worksheets will be named to adjust the accruals at the end of the quarter so that they
reflect late quarter payments to awardees.

For item c). OFM has instituted quarterly meetings with each of the technical divisions to
review and determine the adequacy of the accruals. These meetings began at the end of FY
2000 and will continue on a quarterly basis. In addition OFM, in coordination with the
Mission technical offices, has assigned the financial analysts to work permanently with the
technical offices to build expertise and understanding of documenting the accrual process.


Recommendation No. 3: We recommend that USAID1Russia review the eleven
commitments listed in Appendix III of this report and determine the correct status of these
commitments.

We have instituted a proactive approach to determining actions necessary for resolving
the eleven commitments listed in Appendix III of the draft audit report. To date, the
largest of these, Urban Institute, was deobligated after we received AID/Washington
assistance in determining how to document this final action.

The remaining ten outstanding commitments are being addressed as follows.

The Citizens Democracy Corps Inc. and the National Association of Home Builders were
committed under the NMS. AID/Washington has requested that we do nothing on the
outstanding commitments under these awards until AID/W is sure of the proper methodology for
showing these commitments in the financial records and for removing the commitments from
USAID/Russia records.



                Page 2 of 3                                                   Audit Report No. B-118-00-001-F
                                                                                           Appendix II




For World Vision Relief and Development and International Executive Service Corps, we have
been advised to await receipt of the OPACS charges from AID/Washington For the, Department
of Justice commitment, DOJ is trying to determine the best mechanism for DOJ to bill USAID
and receive payment. The resolution of this outstanding commitment will await DOJ action and is
a valid accrual.

The resolution of the Internews commitment is awaiting a close out letter from Internews and final
action by the Contracting Officer.

We will continue to systematically follow up on the promised documentation so that we will have
sufficient information for elimination of these commitments from our records. As noted, we must
await documentation and instructions for final elimination of the so cold commitments. In an
attempt to expedite the receipt of the documentation and instructions, in December we are sending
the USAIID/Russia Chief Accountant to AID/W to personally consult and work on the
outstanding issues for programs where Washington was the paying station.


Recommendation No. 4: We recommend that USAID/Russia retain evidence of supervisory review
of SF-1221 reconciliations for each U-101 report.


For this recommendation, on the September reconciliation worksheet the supervisor signed his
name after reviewing the reconciliation of the SF 1221 and the U-101 reports. This signature has
been maintained in the file for the record. This practice will continue.

We believe that our actions have addressed the requirements presented in recommendations numbered
two through four and request that these recommendations be considered closed upon issuance of the
report. For recommendation number one, we believe that it is resolved. We will request closure of
that recommendation upon our issuance of the memorandum to the OFM staff.




               Page 3 of 3                                                 Audit Report No. B-118-00-001-F
                                                                                             Appendix III



                     OLD COMMITMENTS REQUIRING REVIEW

Commitment       Commitment
Date             Document No.              Vendor                                        Amount

09/26/96         118-0004-A-00-6217        World Vision Relief and Development           $ 157,000

08/31/97         118-0004-A-00-6217        World Vision Relief and Development           $     70,000

04/30/97         118-A-00-97-00157         Citizens Democracy Corps, Inc.                $ 312,300

04/30/97         118-A-00-97-00157         Citizens Democracy Corps, Inc.                $ 1,800,000

04/30/97         118-A-00-97-00109         International Executive Service Corps         $ 600,000

07/07/97         118-A-00-97-00109         International Executive Service Corps         $ 1,368,000

09/23/96         CCN-0007-A-00-4136        Internews Network                             $ 400,000

09/22/97         118-P-00-97-00209         Department of Justice                         $ 100,000

07/27/94         118-0008-C-00-4015        Urban Institute*                              $ 6,354,673

09/29/97         CCN-0008-A-00-4131        National Association of Home Builders         $ 135,475

09/29/97         CCN-0008-A-00-4131        National Association of Home Builders         $ 364,525

_____________                                                                            $11,661,973



* - Original commitment totaled $15 million. No further disbursements posted since 07/18/96.




                     Page 1 of 1                                            Audit Report No. B-118-00-001-F
